Federal Deposit Insurance Corporation
3501 Fairfax Drive, Arlington, VA 22226                                                 Office of Inspector General


DATE:                                     March 26, 2014

MEMORANDUM TO:                            Martin J. Gruenberg
                                          Chairman


                                          /Signed/
FROM:                                     Fred W. Gibson, Jr.
                                          Acting Inspector General

SUBJECT:                                  Reliability of Previously-Issued Audit Reports on the FDIC’s
                                          Information Security Program


In a memorandum dated May 30, 2013, the Office of Inspector General (OIG) informed you
that it had become aware of information related to the FDIC’s information security program
that could affect the reliability of two previously-issued audit reports—Independent Evaluation
of the FDIC’s Information Security Program—2011 (Report No. AUD-12-002, dated
October 31, 2011) and Independent Evaluation of the FDIC’s Information Security Program—
2012 (Report No. AUD-13-003, dated November 5, 2012). These reports were not made
available to the public due to the sensitive nature of the information they contained. Only the
reports’ Executive Summaries, which did not contain sensitive information, were posted on our
public Web site.

Consistent with Government Auditing Standards, we provided notice to users of the reports
that the associated findings and conclusions may not be reliable. Further, we performed
expanded audit procedures during 2013 to assess the impact of the information on the earlier
reports. Based on those procedures, we determined that the findings and conclusions related to
Incident Response and Reporting and Risk Management in both reports were not reliable, but
that the reports’ other findings and conclusions were reliable, and the associated
recommendations were valid. The results of our expanded audit procedures are described in
our audit report, entitled Independent Evaluation of the FDIC’s Information Security
Program—2013 (Report No. AUD-14-002, dated November 21, 2013).

We plan to link this memorandum to the Executive Summaries of the earlier audit reports
posted on our public Web site to clarify the associated findings and conclusions.

If you have questions or concerns regarding this matter, please contact me at (703) 562-6339.
                                      Executive Summary

                                      Independent Evaluation of the FDIC’s
                                      Information Security Program—2012
                                                                                       Report No. AUD-13-003
                                                                                              November 2012

Why We Did The Audit
The Federal Information Security Management Act of 2002 (FISMA) requires federal agencies, including
the FDIC, to perform annual independent evaluations of their information security programs and practices
and to report the evaluation results to the Office of Management and Budget (OMB). FISMA states that
the independent evaluations are to be performed by the agency Inspector General (IG), or an independent
external auditor as determined by the IG.

The objective of this performance audit was to evaluate the effectiveness of the FDIC’s information
security program and practices, including the FDIC’s compliance with FISMA and related information
security policies, procedures, standards, and guidelines.

Background
Key to achieving the FDIC’s mission of maintaining stability and public confidence in the nation’s
financial system is safeguarding the sensitive information, including personally identifiable information,
that the FDIC collects and manages in its role as federal deposit insurer and regulator of state non-
member financial institutions. As an employer, an acquirer of services, and a receiver for failed
institutions, the FDIC also obtains considerable amounts of sensitive information from its employees,
contractors, and failed institutions. Further, the FDIC has begun collecting sensitive information, such as
resolution plans for systemically important financial institutions, pursuant to its responsibilities under the
Dodd-Frank Wall Street Reform and Consumer Protection Act. Implementing proper controls over this
information is critical to mitigating the risk of a negative financial impact upon insured institutions or an
unauthorized disclosure that could lead to identity theft, consumer fraud, and potential legal liability or
public embarrassment for the Corporation.

FISMA requires federal agencies, including the FDIC, to develop, document, and implement agency-wide
information security programs to provide security for their information and information systems and to
support the operations and assets of the agencies, including information and information systems that are
provided or managed by another agency, contractor, or other source. FISMA directs the National Institute
of Standards and Technology (NIST) to develop risk-based standards and guidelines to assist agencies in
defining security requirements for their information systems. In addition, OMB issues information
security policies and guidelines for federal information resources pursuant to various statutory authorities.
In this regard, OMB issued Memorandum M-12-20, FY 2012 Reporting Instructions for the Federal
Information Security Management Act and Agency Privacy Management, dated October 2, 2012. This
memorandum provides the heads of executive departments and agencies with instructions for meeting
their reporting requirements under FISMA and for reporting on their privacy management programs.

The Department of Homeland Security (DHS) exercises primary responsibility within the Executive
Branch for the operational aspects of federal agency cybersecurity with respect to the federal information
systems that fall within the scope of FISMA. DHS’s responsibilities include overseeing agency
compliance with FISMA and formulating analyses for OMB’s use in the development of its annual
FISMA report to the Congress. DHS provided agency IGs with a set of security-related questions to
address their FISMA reporting responsibilities in a March 6, 2012 document entitled, FY 2012 Inspector
General Federal Information Security Management Act Reporting Metrics.

We evaluated the effectiveness of the FDIC’s information security program and practices by designing
audit procedures to assess consistency between the FDIC’s security controls and FISMA requirements,
OMB policy and guidelines, and applicable NIST standards and guidelines in the areas covered by the
                                                    i
                                    Independent Evaluation of the FDIC’s
  Executive Summary
                                    Information Security Program—2012
                                                                                    Report No. AUD-13-003
                                                                                           November 2012

DHS questions. We are required to submit our responses to the DHS questions through OMB’s FISMA
reporting platform—CyberScope—by November 15, 2012.

Audit Results
We concluded that, except as noted below, the FDIC had established and maintained information security
program controls that were generally consistent with FISMA requirements, OMB policy and guidelines,
and applicable NIST standards and guidelines for the security control areas that we evaluated. Of
particular note, the FDIC had established security policies and procedures in almost all of the security
control areas evaluated. The FDIC also continued to make meaningful progress on a multi-year initiative
to improve its agency-wide Continuous Monitoring controls designed to facilitate near real-time risk
management and promote organizational situational awareness with regard to the state of security of the
FDIC’s information systems.

Notwithstanding the above achievements, management attention is warranted in several security control
areas, particularly Plan of Action and Milestones (POA&Ms), Contractor Systems, and Risk
Management. Specifically, planned actions to address a large number of high- and moderate-risk security
vulnerabilities were significantly past their scheduled completion dates on POA&Ms, limiting the FDIC’s
assurance that sensitive information and information technology (IT) resources are adequately protected.
In addition, risk in the area of Contractor Systems remains elevated due to the FDIC’s continued heavy
reliance on contractors to support bank resolution and receivership activities. While the FDIC has
developed a risk-based strategy and formal methodology for assessing risks associated with Contractor
Systems, significant work remains to apply the methodology to all of the FDIC’s outsourced information
service providers. With respect to Risk Management, our report describes an approach that the FDIC can
take to help ensure that business-led application development efforts are incorporated into the FDIC’s risk
management framework and IT governance processes.

The FDIC’s business divisions and offices play a critical role in the successful implementation of the
FDIC’s information security program, including those areas where we found that management attention
was warranted. In this regard, the Chief Information Officer (CIO) will need to coordinate with other
senior FDIC management officials to ensure that program-related priorities are balanced with the need to
address the Corporation’s information security requirements.

Recommendations and Corporation Comments
Our report contains 14 recommendations to improve the effectiveness of the FDIC’s information security
program controls. In many cases, the FDIC was already working to strengthen security controls in these
areas during our audit. We identified certain other potential control enhancements that we did not
consider significant within the context of the audit’s objective. We communicated those matters
separately to appropriate FDIC management officials.

On November 2, 2012, the FDIC’s CIO, who also serves as Director, Division of Information
Technology, and the Director, Division of Administration, provided a written response to a draft of this
report. In the response, FDIC management concurred with all 14 of the report’s recommendations and
described planned corrective actions that were responsive.

Because this report contains sensitive information, we do not intend to make the report available to the
public in its entirety. We will, however, post this Executive Summary on our public Web site.

                                                     ii
